July 1, 2010

LINDA A. KINGSLEY
ACTING VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Flats Sequencing System Operational Issues –
        (Report Number DR-AR-10-005)

This report presents the results of our audit on the Flats Sequencing System (FSS)
(Project Number 10XG006DR000). Our objective was to evaluate the FSS operations1
in selected Northern Virginia District delivery units. This audit addressed operational
risk and was initiated by the U.S. Postal Service Office of Inspector General (OIG). See
Appendix A for additional information about this audit.

In October 2006, the U.S. Postal Service recommended approval of a $1.4 billion
acquisition to develop, purchase, and deploy 100 FSS machines at 33 sites. FSS
machines sort flat-sized mail such as large envelopes, newspapers, catalogs, circulars,
and magazines into delivery walk sequence at high speeds and at a much higher
productivity rate than the manual process. In full deployment, the FSS is expected to
produce annual operational savings of $613 million. Delivery units should achieve this
savings by eliminating manual carrier casings and reducing the number of routes,
resulting in reduced workhours.

Conclusion

Northern Virginia District delivery units2 have improved delivery operations with FSS.
These units’ improvements contributed to a 6-month cost reduction of $196,271 as well
as a reduction of 79 city routes and a proportionate number of delivery vehicles.
However, we identified several FSS machines that were unavailable for several months
and processing issues that negatively impacted delivery operations. Specifically, we
found:




1
  OIG Report, Effects of Flats Sequencing System on Delivery Operations- Northern Virginia Districts (Report
Number DR-AR-09-011, dated September 28, 2009), included a review of delivery performance indicators for five of
the 10 initial FSS sites during the pre-production test phase using one FSS machine. This report focuses on the full
production environment where the district had two machines in operation, and 35 delivery units receiving FSS
sequenced flats.
2
  The five Northern Virginia District delivery units reviewed were Fairfax-Chantilly, Leesburg Annex, Leesburg Main
Post Office (PO), Manassas Annex, and Oakton.
Flats Sequencing System                                                                       DR-AR-10-005
 Operational Issues



     Eight delivery units3 suspended from receiving FSS sequenced flat pieces
      between September and December 20094 due to the instability of the processing
      equipment5 creating processing delays with seasonal mailings. While the units
      have since corrected the problem, city carriers manually cased approximately
      13.4 million flat mailpieces and manual distribution clerks had to distribute 1.5
      million flat mailpieces for 255 city routes.

     Over 145,000 pieces of mail required additional casing and sorting at the delivery
      units by city carriers and manual distribution clerks due to changes in the plant’s
      processing time.6 See Appendix B for our detailed analysis of this topic.

Consequently, we estimated the Postal Service incurred unrecoverable questioned
costs of approximately $852,336 for fiscal years (FYs) 2009 and 2010. See Appendix C
for our monetary impact.

We recommend the vice president, Capital Metro Area Operations:

1. Track and monitor Flats Sequencing System processing operations to reduce labor
   hours associated with additional manual sorting of unworked flat mail sent to
   delivery units.

2. Require plant and district managers to coordinate efforts in reviewing, updating, and
   complying with their integrated operating plans to ensure sequenced flat mail
   arrives timely to delivery units.

Management’s Comments

Management agreed with the first finding and all the recommendations, but disagreed
with the methodology in the second finding and our calculation of monetary impact. On
the other hand, management stated they appreciated our conclusion regarding the
delivery units improved delivery operations with FSS implementation. Thus,
management requested the final report acknowledge the actual workhour and dollar


3
  Several of these suspended sites were included in our original sample. FSS was suspended in eight delivery units
on September 14, 2009, due to machine problems and other operational issues. However, we did review the
machine and operational issues and its impact on delivery operations in the Northern Virginia District for the
selected units and these eight units.
4
  FSS-processing operations were suspended at the following eight delivery units: Arlington South, Community,
Buckingham, Bailey's Crossroads, Mosby, Franconia, Kingstowne, and Turnpike. As of January 2010, these units
have been receiving FSS-processed mail.
5
  Instability of the FSS equipment was discussed in OIG report Flats Sequencing System: First Article Retest
Results (Report Number DA-AR-09-12, dated September 4, 2009).
6
  The FSS is equipped to process mail for approximately 17 hours per day, providing about 280,500 sequenced flats
per day, per machine. The expectation is that there will only be one dispatch per zone per day, other than First-
Class Mail®. Standard and Periodicals mail arriving for processing at an FSS facility after the cut-off time will be held
until the next operational day or sent the same day to the delivery units as unworked mail requiring manual sorting
and casing by clerks and carriers.




                                                           2
Flats Sequencing System                                                DR-AR-10-005
 Operational Issues

savings. Management stated savings to date include the reduction of 79 city routes and
a proportionate number of delivery vehicles.

In response to recommendation 1, management stated the staff currently tracks FSS
volume and compares this volume to non-sequenced flats received in delivery units
daily. In addition, they stated performance reports are provided to the district on a daily
basis since October 30, 2009. In response to recommendation 2, management stated
district managers will review and update their integrated operating plans by September
30, 2010, to ensure sequenced flat mail arrives timely to delivery units.

In response to the monetary savings, management initially disagreed in part with the
analysis of the unrecoverable questions costs, because they believe the reported
volume is overstated and the report assumes the unworked mail should have been
processed on the FSS. They provided additional information on this finding, and as a
result, we made changes to our calculations. In discussions held on June 21, 2010,
management agreed with the changes to our methodology and the estimated monetary
savings. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers managements’ comments responsive to the findings and
recommendations, and management’s corrective actions should resolve the issues
identified in the report.

Management indicated their disagreement with our estimated monetary impact of
$1,412,391 and our methodology that all flat mail not in walk sequence was manually
sorted and cased by clerks and carriers. On June 14, 2010, area officials expressed
concerns with using the delivery units’, total cased flat mail volume instead of the daily
cased mail volume, and the average performance percentage based on daily volume
for the calculation. Area officials subsequently provided additional operational
information, including cased volume data and the district’s FSS average performance
percentage at 59 percent, during September and December 2009. Using the additional
information, we recalculated our cost savings, which resulted in a reduction in the OIG
estimated cost savings from $1,412,391 to $852,336.

The OIG considers all the recommendations significant and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             3
Flats Sequencing System                                               DR-AR-10-005
 Operational Issues



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery,
or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Dean J. Granholm
    Elizabeth A. Schaefer
    Michael S. Furey
    Jeffery W. Lewis
    Weldon E. Carson
    Sally K. Haring




                                            4
Flats Sequencing System                                                DR-AR-10-005
 Operational Issues

                     APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In October 2006, the Postal Service recommended approval of a $1.4 billion Phase I
Decision Analysis Report (DAR) to develop, purchase, and deploy 100 FSS machines
at 33 sites. The FSS machines sort flat-sized mail such as large envelopes,
newspapers, catalogs, circulars, and magazines into delivery sequence at high speeds
and at a much higher productivity rate than the manual process. FSS-processed mail
will arrive at the delivery unit in walk sequence order, ready for delivery by the carrier
with no additional mail movement or manual sorting required.

Management conducted FSS “pre-production” testing from December 2007 through
May 2009 at the Dulles Processing and Distribution Center. In full deployment, the FSS
is expected to produce annual operational savings of $613 million. The Postal Service
should realize these savings once the delivery units eliminate the requirement for mail
carriers to manually case flat mail. Since mail clerks would no longer need to manually
sort flats, there should be a reduction in clerks’ workhours at delivery units. Full
production of FSS began in June 2009, and 80 delivery units are currently receiving
FSS-processed mail. During a 24-hour period, each FSS machine will process flats into
delivery point sequence within a 17-hour operational window. Units will hold Standard
and Periodicals mail that arrives after cut-off time for processing at an FSS facility until
the next operational day. Delivery date requests on mailpieces will be processed on the
appropriate day.

The Postal Service had a difficult FY 2009. Mail volume declined by approximately 25
billion pieces. Due to declining mail volume of catalogs and Periodicals mail, the Postal
Service decided to add nearly 300 ZIP Codes™ to the list of areas that FSS machines
will serve. The 100 machines in Phase I of the FSS program will be spread among 42
city locations — including new sites in Houston, TX; Philadelphia, PA; Charlotte, NC;
and Minneapolis and St. Paul, MN — rather than the 33 original city locations.

Prior to receiving FSS-processed mail, delivery units must achieve morning standard
operating procedures II certification and complete carrier optimal routing database
preparation for route adjustments. All routes must have an accurate, current, and
complete Postal Service Form 3999, Inspection of Letter Carrier Route, on file.
Management will make route adjustments for their units after FSS stabilizes and must
make manual distribution clerk schedule adjustments in conjunction with receiving
FSS-processed mail. The FSS significantly changes the periods available for
supervisors to perform their work since carriers’ office time is significantly reduced,
while street time is expanded and begins earlier.




                                             5
Flats Sequencing System                                                                DR-AR-10-005
 Operational Issues

The FSS is a critical component of the Postal Service’s strategy to contain costs
through automating the flat mail stream.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to evaluate the FSS operations in selected Northern Virginia District
delivery units. Due to staggered FSS full production testing start dates, the selected
delivery units reviewed were integrated into the process during different months of FY
2009. Our audit scope covered December 2008 to February 2010, which includes the
6-month period prior to receiving FSS-processed mail and the first 6 months of
receiving FSS-processed mail7 for each delivery unit reviewed. See Table 1.

                                        Table 1. FSS Review Periods
                                     6 Months Prior to                First 6 Months of
            FSS Site              Receiving FSS Mailpieces        Receiving FSS Mailpieces
     Fairfax Chantilly            January 2009 – June 2009       June 2009 – December 20098
     Leesburg Annex               January 2009 – June 2009       June 2009 – December 20099
     Leesburg Main Post
                                December 2008 – May 2009           July 2009 – November 2009
     Office
     Manassas Annex             December 2008 – May 2009          June 2009 – November 2009
     Oakton                      February 2009 – July 2009        August 2009 – January 2010
                       Source: Postal Service Northern Virginia District Management

    To accomplish our objective, we:

       Statistically selected five10 FSS delivery unit locations in the Northern Virginia
        District.

       Reviewed operational issues throughout the district associated with delivery
        units receiving FSS sequenced flat mail.

       Reviewed applicable documentation, policies, and procedures such as the FSS
        DAR, dated October 20, 2006; the approved FSS Work Methods Memorandum
        of Understanding between the Postal Service and the National Association of
        Letter Carriers, dated November 24, 2008; and the FSS Implementation Guide,
        Version 1, dated May 2009.

       Extracted and analyzed data from the Enterprise Data Warehouse (EDW)
        Delivery Data Mart for cased and FSS mailpieces, city carrier office and
        overtime workhours, carriers returning after 1,700, managed service scans, and
        mail distribution clerk office hours.

7
  The scope limitations are due to differences in FSS production start dates for each delivery unit.
8
  We are including performance information for December 2009, because the Fairfax-Chantilly FSS activation date
was June 26, 2009, leaving only 3 work days of FSS performance information.
9
  We are including performance information for December 2009, because the Leesburg Annex FSS activation date
was June 26, 2009, leaving only 3 work days of FSS performance information.
10
   Our original sample included the Buckingham, Community, Oakton, Leesburg Annex, and McLean delivery units.
We selected alternate units due to FSS activation dates and the deactivation of the FSS machines.



                                                       6
  Flats Sequencing System                                                  DR-AR-10-005
   Operational Issues



         Extracted and analyzed Customer Service Delivery Reporting System (CSDRS)
          Mail Condition, Curtailed and Delayed Mail, and Management Comment reports
          to determine the tracking and status of the mail as it arrives at the delivery unit.

         Extracted and analyzed CSDRS mail performance indicators from the WEB
          Executive Information System (WEBEIS).

         Conducted site visits at selected delivery unit locations.

         Interviewed Postal Service Headquarters, Capital Metro Area, and Northern
          Virginia District officials.

  We conducted this performance audit from October 2009 through July 2010 in
  accordance with generally accepted government auditing standards and included such
  tests of internal controls, as we considered necessary under the circumstances. Those
  standards require that we plan and perform the audit to obtain sufficient, appropriate
  evidence to provide a reasonable basis for our findings and conclusions based on our
  audit objective. We believe that the evidence obtained provides a reasonable basis for
  our findings and conclusions based on our audit objective. We discussed our
  observations and conclusions with management on April 14 and 20, 2010, and June 14
  and 21, 2010 including their comments where appropriate.

  We extracted and analyzed data from EDW, CSDRS and WEBEIS. We assessed the
  reliability of data such as delivery performance indicators, cased and FSS flat
  mailpieces, carrier and clerk workhours and mail condition reports by interviewing
  agency officials knowledgeable about the data. We determined that the data were
  sufficiently reliable for the purposes of this report.


  PRIOR AUDIT COVERAGE

  The OIG has issued seven reports, and GAO has issued one report related to our
  objective in the last several years.

                   Report        Final Report       Monetary
 Report Title     Number             Date            Impact                 Report Results
Flats           DR-AR-09-011      9/28/2009           None      The five selected Northern Virginia
Sequencing                                                      District delivery units improved in
System on                                                       delivery operations during the initial
Delivery                                                        6 months of FSS testing. Flat
Operation –                                                     volumes decreased by more than 50
Northern                                                        percent during this testing period, so
Virginia                                                        we could not determine how much of
District                                                        these operational gains were due to
                                                                implementation of the FSS. No
                                                                recommendations were made in this
                                                                report.



                                                7
  Flats Sequencing System                                                  DR-AR-10-005
   Operational Issues

                    Report      Final Report       Monetary
 Report Title      Number           Date            Impact                  Report Results
Flats            DA-AR-09-012     9/4/2009           None       Although FSS machine performance
Sequencing                                                      improved since the original test, the
System: First                                                   system failed to meet key statement
Article Retest                                                  of work performance parameters.
Results                                                         The Postal Service attributed FSS
                                                                performance shortcomings to the
                                                                lack of additional hardware and
                                                                software solutions that were not
                                                                incorporated into the First Article
                                                                Testing 2A system. Failure to meet
                                                                statement of work performance
                                                                requirements would reduce
                                                                forecasted savings and increase
                                                                operational burdens. Management
                                                                partially agreed with the finding and
                                                                recommendation.
Flats            CA-AR-09-006    7/1/2009          $7,733,522   This audit determined that
Sequencing                                                      management of the FSS contract
System                                                          process resulted in increased
Contractual                                                     financial risk to the Postal Service.
Remedies                                                        Management agreed with findings
                                                                and recommendations 1 and 2 but
                                                                only partially agreed with the finding
                                                                and recommendation 3.
Flats            DA-AR-09-001   12/23/2008           None       The report determined that program
Sequencing                                                      management was attentive to
System:                                                         system performance and schedule
Program                                                         risks. Management agreed with the
Status                                                          finding and recommendation in this
                                                                report.
Management       CA-MA-09-002    12/1/2008           None       The report did not identify any
of Contract                                                     unnecessary or inappropriate
Changes –                                                       increased costs to the Postal
Flats                                                           Service because of changes to the
Sequencing                                                      FSS contract. Management agreed
System                                                          with the finding and recommendation
                                                                in this report.
Flats            DA-AR-08-006    6/4/2008            None       The report determined the Postal
Sequencing                                                      Service needed to focus greater
System:                                                         attention on workload, the First
Production                                                      Article Testing schedule, and critical
First Article                                                   deliverables. Management generally
Testing                                                         agreed with the finding and
Readiness                                                       recommendation in this report.
and Quality




                                               8
  Flats Sequencing System                                               DR-AR-10-005
   Operational Issues

                   Report      Final Report       Monetary
 Report Title     Number           Date            Impact                Report Results
Flats           DA-AR-07-003    7/31/2007           None     The report determined that Postal
Sequencing                                                   Service Engineering needed to focus
System Risk                                                  greater attention on risk
Management                                                   management standards to ensure
                                                             the significant risks associated with
                                                             deployment of the FSS were
                                                             adequately identified and managed.
                                                             Management agreed with findings
                                                             and recommendations 1 and 2 but
                                                             disagreed with findings and
                                                             recommendations 3 and 4 of this
                                                             report.
Mail Delivery   GAO-09-696      7/15/2009          None      The Postal Service has taken steps
Efficiency                                                   to deliver mail more efficiently,
Has                                                          including adjusting delivery routes to
Improved, but                                                reflect declining volumes and
Additional                                                   investing in more efficient mail-
Actions                                                      sorting technologies. This report
Needed to                                                    addressed how the Postal Service
Achieve                                                      monitors delivery efficiency,
Further Gains                                                characteristics of delivery units that
                                                             affect their efficiency, and the status
                                                             and results of the Postal Service’s
                                                             actions to improve delivery
                                                             efficiency, in particular FSS. No
                                                             recommendations were made in this
                                                             report.




                                              9
Flats Sequencing System                                                                    DR-AR-10-005
 Operational Issues

                                APPENDIX B: DETAILED ANALYSIS

Machine and Operational Issues

Although improvements occurred, we identified several FSS machines that were
unavailable for several months and processing issues that negatively impacted delivery
operations. As a result, the Postal Service incurred estimated unrecoverable
questioned costs of $852,336 for FYs 2009 and 2010.

Suspension of FSS Processing

The FSS machines were unavailable for several months, which required employees to
manually sort and case flats mailpieces in delivery units. Specifically, between
September and December 2009, management suspended FSS processing for eight
FSS activated delivery units requiring city carriers to case 13.4 million flat mailpieces
and manual distribution clerks to sort approximately 1.5 million flat mailpieces for
delivery. Capital Metro Area officials suspended FSS processing of flats mailpieces
due to the instability of the FSS machines and the need for additional mailpieces
testing of FSS processing equipment. While management has since corrected the
problem, these Northern Virginia District delivery units incurred unrecoverable labor
costs11 of $797,818 and $41,383, respectively. See Tables 5 and 6.

              Table 5. City Carriers’ Workhours and Costs for Manual Processing
                                                       FYs 2009
                                                       and 2010                                          FYs 2009
                                             Total      Cost of                                             and
                            FYs 2009     Cased Flats    Casing      Total Cased                         2010 Costs
                            and 2010      Mailpieces Workhours          Flats                            of Casing
                             Casing          (100        (100        Mailpieces                         Workhours
     Delivery Unit         Workhours       Percent)    Percent)     (59 Percent)                       (59 Percent)
Alexander- Community              4,265     1,838,017   $185,021       1,084,430                           $109,163
Bailey’s Crossroad                4,228     1,822,317     183,567      1,075,167                            108,304
Buckingham                        3,368     1,451,738     146,266        856,525                             86,297
Franconia                         2,863     1,233,863     124,199        727,979                             73,277
Kingstowne                        2,624     1,130,866     113,805        667,211                             67,145
Mosby                             3,381     1,457,347     146,776        859,835                             86,598
South Station                     3,617     1,559,115     157,102        919,878                             92,690
Turnpike                          6,811     2,935,515     295,498      1,731,954                            174,344
Totals                           31,157    13,428,778  $1,352,234      7,922,979                           $797,818
                                          Source: EDW




11
  According to the FSS program, DAR delivery units should expect to capture an 85-percent savings rate for city
carriers, and an 80-percent savings rate for manual distribution clerks; however, because FSS is processing at a 59-
percent performance rate in the Northern Virginia District we used 59 percent in the OIG calculations. The calculated
savings is based on a carrier’s productivity rate of 431 flats per hours and a clerk’s productivity of 1,006.25 pieces
per hour. We used FYs 2009 and 2010 wage rates for the calculations.



                                                         10
Flats Sequencing System                                                                       DR-AR-10-005
 Operational Issues

         Table 6. Manual Distribution Clerks’ Workhours and Costs for Manual Processing
                                                         FYs 2009
                                               Total     and 2010                    FYs 2009
                                              Sorted      Cost of                       and
                             FYs 2009          Flats      Sorting     Total Sorted  2010 Costs
                             and 2010      Mailpieces   Workhours         Flats      of Sorting
                              Sorting          (100        (100        Mailpieces   Workhours
      Delivery Unit         Workhours        Percent)    Percent)     (59 Percent) (59 Percent)
Alexander- Community                  220       221,871     $10,303        130,904        $6,079
Bailey’s Crossroad                    232       233,933      10,865        138,020         6,410
Buckingham                            209       210,142       9,770        123,984         5,764
Franconia                             107       107,626       4,995         63,499         2,947
Kingstowne                            115       115,650       5,368         68,234         3,167
Mosby                                 180       181,575       8,439        107,129         4,979
South Station                         167       168,361       7,827          99,333        4,618
Turnpike                              269       270,841      12,575        159,796         7,419
Totals                              1,499     1,509,999     $70,142        890,899       $41,383
                                           Source: EDW

Late and Unprocessed Mail

We found 145,853 pieces of unworked flats that were not processed on the FSS
machines before the flats arriving at two delivery units. According to delivery unit
management, the processing facility changed its mail processing times (schedule) for
flat mailpieces. The schedule change resulted in unworked flats arriving late at these
units. Consequently, city carriers and manual distribution clerks had to manually case
and sort this mail. See Table 7.

                      Table 7. CSDRS Mail Condition October 2009 – February 2010

                        Delivery Unit         Late-Arriving Mailpieces12         Unworked Flats
                     Fairfax Chantilly                              131,609                        0
                     Leesburg Annex                                 106,969                        0
                     Leesburg Main PO                                 88,544                       0
                     Manassas Annex                                   39,494               145,134
                     Oakton                                           50,494                    719
                     Totals                                 417,110                        145,853
                                          Sources: CSDRS and WebEIS




12
  Since the total of the late-arriving mailpieces includes both letters and flats, we were unable to identify the actual
number of flats mailpieces. We make no assumptions that these mailpieces would or should have been processed
on FSS.



                                                           11
 Flats Sequencing System                                                                      DR-AR-10-005
  Operational Issues

                                   APPENDIX C: MONETARY IMPACT

 We estimated a monetary impact of $852,336 in unrecoverable questioned costs13 for
 FYs 2009 and 2010. We calculated the cost savings14 based on additional labor cost
 incurred by selected Northern Virginia delivery units due to city carriers and manual
 distribution clerks casing and sorting flat mailpieces. See Tables15 8, 9, 10, 11, 12, 13,
 and 14.

                                  Table 8. Summary of Cost Savings
                       Findings                               Impact Category                                 Amount
Suspension of FSS Processing – City Carriers
September FY 2009 Costs for Manual Casing (See
Table 9)                                              Unrecoverable questioned costs                            $125,482
Suspension of FSS Processing – City Carriers October
– December FY 2010 Costs for Manual Casing (See
Table 10)                                             Unrecoverable questioned costs                             672,336
Suspension of FSS Processing – Manual Distribution
Clerks September FY 2009 Costs for Manual Sorting
(See Table 11)                                        Unrecoverable questioned costs                                5,492
Suspension of FSS Processing – Manual Distribution
Clerks October – December FY 2010 Costs for Manual
Sorting (See Table 12)                                Unrecoverable questioned costs                               35,891
Late and Unprocessed Flats City Carriers October –
February FY2010 Costs for Manual Casing (See Table
13)                                                   Unrecoverable questioned costs                                8,719
Late and Unprocessed Flats Manual Distribution Clerks
October – February FY2010 Costs for Sorting (See
Table 14)                                             Unrecoverable questioned costs                               4,416
                                                      Total                                                     $852,336
                                         Source: OIG Analysis




 13
    Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
 14
    According to the DAR for the FSS program, delivery units should expect to capture an 85-percent savings rate for
 city carriers and an 80-percent savings rate for manual distribution clerks; however, because the FSS is processing
 at a 65-percent performance rate we used 65 percent in the OIG calculations. The calculated savings are based on
 a carrier productivity rate of 431 flats per hour and clerk productivity is 1,006.25 pieces per hour. Calculations used
 FYs 2009 and 2010 wage rates.
 15
    Totals may not add up due to rounding.



                                                           12
  Flats Sequencing System                                                  DR-AR-10-005
   Operational Issues


                   Table 9. September 2009 City Carrier Costs for Manual Casing
                                                                                          FY 2009
                           FY 2009                    FY 2009 Cost                        Costs of
                          Number of     Total Cased    of Casing       Total Cased         Casing
                           Casing       Flats Pieces   Workhours        Flat Pieces      Workhours
     Delivery Unit        Workhours    (100 Percent) (100 Percent)     (59 Percent)     (59 Percent)
Alexander- Community              730         314,487      $30,653           185,547         $18,085
Bailey’s Crossroad                648         279,114       27,206           164,677          16,051
Buckingham                        499         214,857       20,942           126,766          12,356
Franconia                         494         212,796       20,741           125,550          12,237
Kingstowne                        468         201,840       19,674           119,086          11,607
Mosby                             534         230,089       22,427           135,753          13,232
South Station                     525         226,351       22,063           133,547          13,017
Turnpike                        1,166         502,489       48,978           296,469          28,897
        TOTALS                  5,063       2,182,023     $212,684         1,287,394        $125,482
                                  Sources: EDW and OIG Analysis


               Table 10. October – December 2009 City Carrier Costs for Manual Casing
                                                             FY 2010                      FY 2010
                            FY 2010                          Cost of      Total Cased     Costs of
                           Number of      Total Cased        Casing       Flat Pieces      Casing
                            Casing        Flats Pieces     Workhours          (59        Workhours
     Delivery Unit        Workhours      (100 Percent)    (100 Percent)    Percent)     (59 Percent)
Alexandra - Community            3,535         1,523,530       $154,368       898,883        $91,077
Bailey’s Crossroad               3,581         1,543,203         156,361      910,490         92,253
Buckingham                       2,870         1,236,881         125,324      729,760         73,941
Franconia                        2,369         1,021,067         103,457      602,430         61,040
Kingstowne                       2,156           929,026          94,131      548,125         55,538
Mosby                            2,847         1,227,258         124,349      724,082         73,367
South Station                    3,092         1,332,764         135,039      786,331         79,673
Turnpike                         5,645         2,433,026         246,520    1,435,485        145,447
        TOTALS                  26,095        11,246,755      $1,139,549    6,635,586       $672,336
                                   Sources: EDW and OIG Analysis




                                                13
      Flats Sequencing System                                                    DR-AR-10-005
       Operational Issues


                 Table 11. September 2009 Manual Distribution Clerk Costs for Manual Sorting
                             FY 2009                         FY 2009 Cost Total Sorted       FY 2009 Costs
                            Number of    Total Sorted Flats    of Sorting        Flat          of Sorting
                             Sorting           Pieces         Workhours       Mailpieces       Workhours
      Delivery Unit         Workhours      (100 Percent)     (100 Percent) (59 Percent)       (59 Percent)
Alexander- Community                 33             32,909           $1,494        19,416                $881
Bailey’s Crossroad                   33             32,917            1,494        19,421                 881
Buckingham                           22             21,811              990        12,868                 584
Franconia                            18             18,150              824        10,709                 486
Kingstowne                           19             19,069              865        11,251                 511
Mosby                                21             20,910              949        12,337                 560
South Station                        18             17,968              816        10,601                 481
Turnpike                             41             41,370            1,878        24,408               1,108
TOTALS                             205             205,104           $9,310       121,011             $5,492
                                       Sources: EDW and OIG Analysis




            Table 12. October – December 2009 Manual Distribution Clerk Costs for Manual Sorting
                                                                                  Total
                                FY 2010                         FY 2010 Cost Sorted Flat FY 2010 Costs
                              Number of     Total Sorted Flats    of Sorting    Mailpieces     of Sorting
                                Sorting           Pieces         Workhours         (59         Workhours
       Delivery Unit          Workhours       (100 Percent)     (100 Percent)    Percent)     (59 Percent)
Alexander- Community                    188            188,962         $8,809      111,488           $5,197
Bailey’s Crossroad                     200             201,016           9,371     118,599             5,529
Buckingham                             187             188,331           8,780     111,115             5,180
Franconia                                89             89,476           4,171      52,791             2,461
Kingstowne                               96             96,581           4,502      56,983            2,656
Mosby                                  160             160,665           7,490      94,792             4,419
South Station                           149            150,393           7,011      88,732             4,137
Turnpike                               228             229,471         10,698      135,388            6,312
TOTALS                                1297           1,304,895        $60,832      769,888          $35,891
                                       Sources: EDW and OIG Analysis




                                                     14
    Flats Sequencing System                                                    DR-AR-10-005
     Operational Issues




          Table 13. October – February 2010 City Carrier Costs Manual Casing Unworked Flats
                                                                                               FY 2010
                                                                                               Costs of
                                                                 FY 2010      Total Cased       Casing
                            FY 2010          Total Cased         Cost of       Unworked       Unworked
                           Number of        Unprocessed          Casing       Flat Pieces        Flats
                            Casing           Flats Pieces      Workhours          (59         Workhours
      Delivery Unit        Workhours        (100 Percent)     (100 Percent)     Percent)     (59 Percent)
Fairfax Chantilly                      0                 0               $0              0              $0
Leesburg Annex                         0                 0                0              0               0
Leesburg Main PO                       0                 0                0              0               0
Manassas Annex                       337           145,134           14,705         85,629           8,676
Oakton                                 2               719               73            424              43
Totals                               339           145,853          $14,778         86,053          $8,719




           Table 14. October – February 2010 Manual Distribution Clerk Costs for Manual Sorting
                                                                              Total Sorted     FY 2010
                                                              FY 2010 Cost
                              FY 2010        Total Sorted                      Unworked        Costs of
                                                                of Sorting
                            Number of       Unprocessed                           Flat         Sorting
                                                               Workhours
                              Sorting        Flats Pieces                      Mailpieces     Workhours
                                                              (100 Percent)
      Delivery Unit         Workhours       (100 Percent)                     (59 Percent)   (59 Percent)
Fairfax Chantilly                       0                 0               $0              0            $0
Leesburg Annex                          0                 0                0              0             0
Leesburg Main PO                        0                 0                0              0             0
Manassas Annex                        144           145,134           6,766          85,629         3,992
Oakton                                 15               719              719            424           424
Totals                                159           145,853          $7,485          86,053        $4,416




                                                   15
Flats Sequencing System                                 DR-AR-10-005
 Operational Issues

                    APPENDIX D: MANAGEMENT’S COMMENTS




                                   16
Flats Sequencing System        DR-AR-10-005
 Operational Issues




                          17
Flats Sequencing System        DR-AR-10-005
 Operational Issues




                          18
Flats Sequencing System        DR-AR-10-005
 Operational Issues




                          19
Flats Sequencing System        DR-AR-10-005
 Operational Issues




                          20
Flats Sequencing System        DR-AR-10-005
 Operational Issues




                          21
Flats Sequencing System        DR-AR-10-005
 Operational Issues




                          22
